Audit Report




OIG-09-043
SAFETY AND SOUNDNESS: Material Loss Review of Ocala
National Bank
August 26, 2009




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................. 1

    Results in Brief ............................................................................................ 2

    Causes of Ocala National Bank’s Failure .........................................................              4
      Aggressive Growth and High Concentration in Construction
         and Land Development Loans ..............................................................                 5
      Unsound Credit Risk Management, Underwriting, and Administration ............                                8
      Ineffective Board and Management ...........................................................                 9

    OCC’s Supervision of Ocala National Bank .....................................................              10
      Earlier and Stronger Supervisory Response to Bank’s
         Concentration in Construction and Land Development Loans
         Was Warranted ..................................................................................       12
      Owner, Family, and Board Members Benefited Financially
         While Bank’s Financial Condition Deteriorated ........................................                 20
      OCC Appropriately Used Prompt Corrective Action .....................................                     22
      OCC Southern District’s Internal Quality Assurance Review Found
         That Supervision Was Satisfactory and Effective ....................................                   23

    Recommendations ....................................................................................... 24

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              27
    Appendix     2:      Background..........................................................................   30
    Appendix     3:      Glossary of Terms ................................................................     34
    Appendix     4:      Chronology of Significant Events. ...........................................          40
    Appendix     5:      OCC Ocala National Bank Examinations, Significant
                         Issues, and Enforcement Actions ............................................           43
    Appendix     6:      Prior OIG Material Loss Review Recommendations ....................                    51
    Appendix     7:      Management Comments ........................................................           53
    Appendix     8:      Major Contributors to This Report ...........................................          55
    Appendix     9:      Report Distribution. ...............................................................   56

Abbreviations

    ALLL                 allowance for loan and lease losses
    CEO                  chief executive officer
    DRR                  Division of Resolutions and Receiverships

                         Material Loss Review of Ocala National Bank (OIG-09-043)                         Page i
FDIC   Federal Deposit Insurance Corporation
MRA    matter requiring attention
OCC    Office of the Comptroller of the Currency
OIG    Office of Inspector General
OREO   other real estate owned
PCA    Prompt Corrective Action
ROE    report of examination




       Material Loss Review of Ocala National Bank (OIG-09-043)   Page ii
                                                                             Audit
OIG
The Department of the Treasury
                                                                             Report
Office of Inspector General




                  August 26, 2009

                  John C. Dugan
                  Comptroller of the Currency

                  This report presents the results of our review of the failure of Ocala
                  National Bank of Ocala, Florida, and of the Office of the
                  Comptroller of the Currency’s (OCC) supervision of the institution.
                  Our review is mandated under section 38(k) of the Federal Deposit
                  Insurance Act, as amended. OCC closed Ocala National Bank and
                  appointed the Federal Deposit Insurance Corporation (FDIC) as
                  receiver on January 30, 2009. As of August 7, 2009, FDIC
                  estimated that the loss to the Deposit Insurance Fund was
                  $99.6 million.

                  Our objectives were to determine the cause of Ocala National
                  Bank’s failure and assess OCC’s supervision of the bank, including
                  implementation of the Prompt Corrective Action (PCA) provisions
                  of section 38(k). We conducted our fieldwork from March 2009
                  through July 2009 at OCC’s headquarters in Washington, D.C., its
                  Southern District office in Dallas, Texas, and its field office in
                  Jacksonville, Florida. We also performed work at FDIC’s Division of
                  Resolutions and Receiverships (DRR) in Dallas, Texas. We reviewed
                  the supervisory files and interviewed key officials involved in the
                  regulatory matters. Appendix 1 contains a more detailed
                  description of our objectives, scope, and methodology.

                  We also include several other appendices in this report. Appendix 2
                  contains background information on Ocala National Bank and
                  OCC’s supervision and enforcement processes. Appendix 3
                  provides a glossary of terms used in this report. Appendix 4
                  contains a chronology of significant events related to the bank’s
                  history and OCC’s supervision of the institution. Appendix 5


                  Material Loss Review of Ocala National Bank (OIG-09-043)       Page 1
               provides bank examination results and information on enforcement
               actions.


Results in Brief
               Ocala National Bank failed because of significant losses within its
               construction and land development loan portfolio. The bank grew
               rapidly from 2004 to 2006, largely due to the increased number
               and high concentration of these loans, but its management did not
               adequately control concentration risk or ensure that credit
               underwriting and administrative controls were adequate. These
               deficiencies were exacerbated by the decline in the real estate
               market and the secondary loan market.

               OCC’s supervision of Ocala National Bank did not prevent a
               material loss to the Deposit Insurance Fund. OCC identified
               problems early at the bank, but the actions taken by the bank were
               not sufficient. OCC identified areas needing correction, but its
               supervisory approach in 2005 through 2007 was primarily to rely
               on examiner recommendations and Matters Requiring Attention
               (MRA) in the ROEs. From 2005 through 2006, OCC also continued
               to assign the bank a CAMELS composite rating of 2, the same
               rating assigned in 2004 when relatively few problems were noted.
               This proved to be an ineffective strategy, as these problems
               persisted and grew worse until the bank ultimately failed in 2009.

               In February 2008, OCC entered into a consent order with the bank.
               OCC was reluctant to take more forceful action earlier because
               prior to 2007 the bank was profitable and asset quality problems
               were not yet readily apparent. While we understand the judgment
               involved, in retrospect we believe a more forceful approach should
               have been used sooner given the bank’s circumstances. Starting in
               2004, the bank owner’s son became chief executive officer (CEO).
               At the time, he had banking experience, but not in running a bank.
               Under his direction, the bank began aggressively growing by way
               of high-risk products. OCC’s response was to require bank
               management to voluntarily rein in this high-risk growth strategy; it
               did not. OCC’s enforcement action policy states that problems or
               weaknesses should be dealt with early, before they develop into


               Material Loss Review of Ocala National Bank (OIG-09-043)       Page 2
                        more serious supervisory issues or adversely affect a bank’s
                        performance and viability.

                        We also identified two other matters that negatively affected Ocala
                        National Bank, but financially benefited the owner and board
                        members. First, in 2007, while the bank was incurring a net
                        operating loss of $2.3 million, it paid dividends of $3.9 million to
                        the bank’s holding company, some of which may have been
                        unallowed. The owner and his family were the majority
                        shareholders of the holding company. Second, the bank made
                        payments totaling approximately $1 million to a company partly
                        owned by the bank owner’s son and several bank board members
                        to repurchase the company’s portion of loans, some of which were
                        nonperforming, while the bank’s financial condition was
                        deteriorating. We believe that OCC should have more aggressively
                        examined both of these matters. We also noted that OCC guidance
                        does not require examiners to expand procedures to include a more
                        detailed review of dividends or payments made to related
                        organizations for troubled or high-risk banks. 1

                        OCC acted forcefully against the bank in early 2008 when it
                        appropriately used its authority under the PCA provisions of the
                        Federal Deposit Insurance Act, as amended. Specifically, OCC’s
                        February 2008 consent order reclassified Ocala National Bank’s
                        capital level to adequately capitalized, which prohibited the bank
                        from accepting or renewing brokered deposits without a waiver
                        from FDIC. The bank did request such a waiver from FDIC and in
                        May 2008, FDIC granted the bank permission to accept, renew,
                        and roll over brokered deposits until August 2008.

                        We recommend that OCC (1) caution examiners and supervisors
                        that decisions to assign the same CAMELS component and
                        composite ratings as in prior exams and refrain from taking
                        enforcement action when conditions at a bank have deteriorated
                        need to be well justified and documented in the examination
                        workpapers, and (2) remind examiners that it is prudent to expand


1
 A related organization is an entity related to a national bank, typically by common ownership or
control. Generally, related organizations are affiliates or subsidiaries. They can include bank holding
companies, operating subsidiaries, financial subsidiaries, statutory subsidiaries, chain banking
organizations, community development corporations, and related interests of principal shareholders.

                        Material Loss Review of Ocala National Bank (OIG-09-043)                     Page 3
              examination procedures for troubled or high-risk banks to review
              the appropriateness of (a) dividends and (b) payments to related
              organizations, particularly when the dividends or payments may
              benefit bank management and board members. In this regard, OCC
              should reassess its examination guidance concerning review of
              dividends and related organizations.

              In a written response, OCC agreed that there were shortcomings in
              its supervision and that it is appropriate to reinforce certain
              principles to its examining staff. OCC stated that senior
              management used a national examiner conference call to illustrate
              for examiners, through the experience of earlier bank failures, the
              importance of being assertive in identifying and following through
              on identified weaknesses in a timely manner. OCC will continue
              this message through examiner briefings, future examiner
              conference calls, and as other opportunities arise. OCC also stated
              that heightened scrutiny of certain dividends and payments to
              related organizations is appropriate. OCC will reinforce this
              message to examiners during one of its regular national conference
              calls. The actions taken and planned by OCC are responsive to our
              recommendations.


Causes of Ocala National Bank’s Failure
              Significant losses within its construction and land development
              loan portfolio were the primary cause of Ocala National Bank’s
              failure. Beginning in 2004, the bank’s board and management
              embarked on a strategy of aggressive growth through the
              origination of construction and land development loans for
              residential real estate. These loans as a percentage of Ocala’s
              capital greatly exceeded that of similar sized banks. Furthermore,
              these loans were being made for properties located in an area of
              Florida that was affected by the significant decline in real estate
              values. Bank management did not adequately control the risk posed
              by the loan concentration or ensure that controls over the bank’s
              credit underwriting and administrative practices were adequate.




              Material Loss Review of Ocala National Bank (OIG-09-043)      Page 4
Aggressive Growth and High Concentration in Construction and
Land Development Loans

Ocala National Bank grew rapidly from 2004 to 2006 by originating
construction and land development loans for residential real estate
in Ocala, Florida. When the homes were completed, the bank
converted the construction and land development loans to
residential mortgage loans, which it then sold to investors in the
secondary market.

From 2004 through 2006, the bank increased its construction
loans by approximately 400 percent (from $39 million to $191
million). Growth rates then declined in 2007 and 2008 because of
the real estate market downturn. Figure 1 illustrates the size and
composition of Ocala National Bank’s loan portfolio from year-end
2004 through 2008.

 Figure 1. Growth and Composition of Ocala National Bank’s Loan Portfolio ($
           millions)




 Source: OIG analysis of Ocala National Bank’s Uniform Bank Performance Reports.


To finance its rapid growth from 2004 to 2006, the bank relied on
volatile wholesale funding, including brokered deposits and loans
from the Federal Home Loan Bank. In September 2005, wholesale

Material Loss Review of Ocala National Bank (OIG-09-043)                       Page 5
funding totaled about 21 percent of the bank’s total liabilities. In
September of 2006 and 2007, brokered deposits represented
approximately 22 percent and 16 percent, respectively, of its total
deposits. The bank’s heavy reliance on brokered deposits increased
its vulnerability to an economic downturn. In 2008, the bank could
no longer readily rely on wholesale funding, including brokered
deposits, because of its asset deterioration and restrictions on the
use of brokered deposits. As a result, liquidity became stressed.

As shown in figure 2, from 2004 through 2008, Ocala National
Bank’s construction and land development loans as a percentage of
its total capital greatly exceeded that of its peer banks.

 Figure 2. Construction and Land Development Loans as a Percentage of
           Total Capital


800%           Ocala National Bank
700%           Peer Median                     694%
600%                           604%
                                                                              553%
500%
                453%                                          476%
400%

300%

200%
                               91%             117%           107%            96%
100%            80%

 0%
            2004           2005           2006             2007          2008

 Source: OIG analysis of Ocala National Bank’s Uniform Bank Performance Reports.


Ocala National Bank’s high concentration of construction and land
development loans peaked in 2006 (reaching nearly 700 percent of
total capital on June 30, 2006, the highest concentration in the
nation that year) and remained high when real estate prices
dropped in 2007. In the interagency guidance Concentrations in
Commercial Real Estate Lending, Sound Risk Management
Practices, effective December 12, 2006, a bank is potentially
exposed to commercial credit risk if (1) loans for construction, land

Material Loss Review of Ocala National Bank (OIG-09-043)                        Page 6
                       development and other land exceed 100 percent of total capital, or
                       (2) total commercial real estate loans represent over 300 percent of
                       total capital and the balance of the portfolio has increased more
                       than 50 percent in the prior 36 months. 2 The bank’s considerable
                       concentration in construction and land development loans made it
                       highly susceptible to declining real estate values and to changes in
                       secondary market underwriting standards.

                       As a percentage of tier 1 capital plus allowance for loan and lease
                       losses (ALLL), the bank’s classified assets were relatively low in
                       2005 (4.1 percent in September 2005) and 2006 (8.2 percent in
                       June 2006). As the Ocala real estate market declined in 2007 and
                       2008, however, the bank had to manage an increasing volume of
                       problem loans. In November 2008, the bank had $56.3 million of
                       classified assets, which represented 733 percent of its capital. By
                       year-end 2008, the bank’s past due loans totaled $46.8 million,
                       representing 25 percent of its loan portfolio. This severe decline in
                       the quality of the bank’s loans led to net operating losses of $2.3
                       million and $31.6 million in 2007 and 2008, respectively.

                       In July 2007, OCC examiners found that many of Ocala National
                       Bank’s borrowers who had used loan proceeds to speculate in the
                       real estate market defaulted. The bank was forced to foreclose on
                       those properties and write down the property values. The
                       foreclosures resulted in a sizeable amount of nonperforming assets
                       held as other real estate owned (OREO). As real estate values
                       continued to decline, the bank was required to further substantially
                       write down the values of OREO and reduce the amounts the bank
                       could recover from selling OREO.

                       With the decline in the real estate values, investors in the
                       secondary loan market refused the bank’s loans they had
                       previously committed to purchase. Stricter underwriting
                       requirements of the secondary market made it necessary for the
                       bank to tighten its underwriting standards on loans—for example,
                       by reducing the loan-to-value ratio. The bank, however, could not
                       sell a large number of loans already in process because, with the

2
  Under OCC’s previous guidance, a concentration of credit consisted of direct, indirect, or contingent
obligations exceeding 25 percent of the bank’s capital structure, which is composed of tier 1 capital
plus the allowance for loan and lease losses.

                       Material Loss Review of Ocala National Bank (OIG-09-043)                    Page 7
                       tighter standards, the loans did not meet this new underwriting
                       requirement. As of September 30, 2007, Ocala National Bank held
                       $139 million of construction and land development loans in its
                       portfolio, but because they did not conform to purchasers’ stricter
                       underwriting standards, the bank could not sell approximately 80
                       percent ($111 million) of them.

                       By December 2008, the asset write-downs, combined with large
                       ALLL provisions and ongoing operating losses, depleted all of Ocala
                       National Bank’s capital. Its tangible equity capital at that time was
                       negative $6.3 million.

                       Unsound Credit Risk Management, Underwriting, and
                       Administration

                       Ocala National Bank’s board and management pursued aggressive
                       growth without establishing adequate credit risk management,
                       underwriting, and administration controls. The bank approved loans
                       that conformed to secondary market underwriting standards at the
                       time, which required little borrower equity and no income
                       verification. Many of the bank’s borrowers speculated in the real
                       estate market by using the loan proceeds to fund construction of
                       residential real estate to be sold later for profit, often obtaining
                       multiple loans for this purpose. The bank’s underwriting did not
                       fully assess the capability of borrowers to repay these loans. By
                       October 2007, loans held by borrowers with two or more loans
                       accounted for 42 percent of classified assets.

                       From 2005 through 2008, OCC examiners repeatedly
                       communicated to Ocala National Bank’s management their
                       concerns about poor credit underwriting and administration
                       practices.

                       •   In OCC’s 2005 ROE, examiners criticized bank management for
                           making loans that exceeded the supervisory loan-to-value
                           limits. 3 Examiners found bank financed construction loans with
3
  Interagency Guidelines for Real Estate Lending Policies establish supervisory loan-to-value limits that
institutions should not exceed: (1) 65 percent for raw land; (2) 75 percent for land development; (3) 80
percent for commercial, multifamily, and other nonresidential loans; and (4) 85 percent for one- to four-
family family residential loans. The guidelines state that institutions must establish review and approval
procedures for loans with loan-to-value percentages in excess of supervisory limits.

                       Material Loss Review of Ocala National Bank (OIG-09-043)                     Page 8
    loan-to-value ratios of 100 percent of the future retail price of
    the homes being constructed.

•   In the 2005 and 2007 ROEs, examiners criticized bank
    management for failing to fully capture and assess the financial
    condition of borrowers.

•   In the 2005, 2006, and 2007 ROEs, examiners criticized bank
    management for failing to obtain real estate appraisals or
    evaluations (evaluations are less comprehensive than appraisals
    and are allowed for certain types of transactions where an
    appraisal is not required) that met minimum regulatory
    standards. Examiners found instances in which appraisals or
    evaluations were not always performed or were not performed
    timely or completely. Examiners also found inadequate support
    for values or assumptions on appraisals. For example, in 2007,
    examiners found a loan that had been approved in 2006 for
    $862,000 for which the appraisal included sales data of
    properties that were not of the same lot size or within the same
    geographical area. In addition, the appraiser had not inspected
    the property. The property was appraised for $1.2 million but
    valued at $680,160 in 2007. OCC examiners downgraded the
    loan to a classified asset in 2007.

•   In the 2007 ROE, examiners criticized bank management for
    failing to recognize most of its problem loans in the commercial
    real estate loan portfolio during 2007. Examiners identified $6
    million of problem loans that the bank should have classified as
    such. Failure to recognize problem loans impaired
    managements’ ability to take timely action to address loan
    quality problems and to accurately evaluate the ALLL.

•   In the 2007 and 2008 ROEs, examiners criticized the lending
    staff’s lack of experience in commercial real estate lending and
    emphasized the need for the bank to retain a loan officer with
    the requisite experience.

Ineffective Board and Management

From 2005 through 2008, Ocala National Bank’s board and
management, heavily influenced by the owner and his family,

Material Loss Review of Ocala National Bank (OIG-09-043)          Page 9
                      repeatedly failed to ensure that adequate policies and procedures
                      were in place to manage significant lending risks. In January 2009,
                      when the board was chaired by the owner and his sons were
                      executives of the bank, one the CEO and the other the chief
                      operating officer, OCC concluded that the board and management
                      were critically deficient, having failed to

                      •   establish safe and sound real estate lending practices,
                      •   establish adequate loan underwriting procedures,
                      •   establish adequate credit administration practices,
                      •   implement effective concentration risk management controls,
                      •   properly control loan growth, and
                      •   prevent excessive concentrations related to real estate loans.

                      OCC examiners attributed the bank’s poor lending practices to
                      management’s desire for significant growth and earnings with little
                      regard for the controls needed to support such growth.

                      Ocala National Bank had a lengthy history of problems. In 1997
                      and 1998, OCC took enforcement action, entering into formal
                      agreements with the bank concerning its ineffective management,
                      uncontrolled loan growth, and poor credit administration practices.4
                      In response, the bank hired an experienced CEO to run the bank.
                      OCC viewed the new CEO as competent and believed the bank
                      was stable with proper systems and controls in place. However,
                      the CEO relinquished his position to the owner’s son in 2004, and
                      the bank embarked on a path of aggressive high-risk loan growth
                      with poor underwriting controls. OCC did not express concern
                      about the management change. OCC thought management had
                      become more experienced and that the examiners could monitor
                      the bank’s management through its examinations.


OCC’s Supervision of Ocala National Bank
                      OCC’s supervisory approach to correcting Ocala National Bank’s
                      problems did not prevent a material loss to the Deposit Insurance
                      Fund. OCC identified problems early at the bank, but the bank did
4
 The formal agreement issued in 1997 was replaced with a revised formal agreement in 1998. The
revised agreement was more stringent because of the bank’s noncompliance with the original formal
agreement.

                      Material Loss Review of Ocala National Bank (OIG-09-043)               Page 10
not take sufficient corrective actions to prevent a material loss.
OCC conducted timely examinations of the bank and provided
oversight through its off-site monitoring. OCC identified areas
needing correction, but its supervisory approach in 2005 through
2007 was primarily to rely on examiner recommendations and
MRAs in the ROEs. From 2005 through 2006, OCC also continued
to assign the bank a CAMELS composite rating of 2, the same
rating it assigned in 2004 when relatively few problems were
noted. This proved to be an ineffective strategy as these problems
persisted and grew worse in 2008 until the bank failed in 2009.

Because the bank was profitable, OCC was reluctant to take more
forceful action, until it entered into a consent order with the bank
in February 2008. While we recognize the judgment involved, in
retrospect we believe that a more forceful approach towards Ocala
National Bank was necessary considering the circumstances.
Starting in 2004, the owner’s son became CEO when the previous
CEO, who had corrected many of the bank’s prior problems,
resigned. At the time, the owner’s son, who had banking
experience but not as a CEO, began aggressively growing the bank
in high-risk products. OCC’s supervisory approach cautioned bank
management to rein in this high-risk growth strategy, which it did
not.

In addition, we identified two other matters that negatively
affected the bank that we believe OCC should have examined more
aggressively. Both matters financially benefited shareholders while
the bank’s financial condition was deteriorating. The first matter
involved the payment of $3.9 million in dividends by the bank to its
holding company in 2007, some of which may have been
unallowed. At the time, the bank was losing money. The second
matter involved a questionable payment of approximately $1
million in 2008 to repurchase loans from a company owned by the
owner’s son and other shareholders.

We also found that OCC appropriately used its authority under PCA
when it imposed PCA-required restrictions on the bank through a
February 2008 consent order. At that time, OCC reclassified Ocala
National Bank’s capital level to adequately capitalized. This
reclassification restricted the bank from accepting or renewing
brokered deposits without an FDIC waiver. The bank requested the

Material Loss Review of Ocala National Bank (OIG-09-043)      Page 11
                        waiver and in May 2008 FDIC granted the bank permission to
                        accept, renew, and roll over brokered deposits until August 2008.

                        Table 2 summarizes the results of OCC’s annual safety and
                        soundness examinations and enforcement actions. Appendix 5
                        provides details of MRAs, corrective actions, and other issues
                        noted during the examination.

                    Table 2: Summary of OCC’s Ocala National Bank Examinations and Enforcement
                             Actions
                                                                   Examination Results
                                                                           Number of
                    Date            Assets         CAMELS       Number     Corrective     Enforcement
                    started         ($Millions)a   rating       of MRAs    actions        actions
                    03/29/2004        $110         2/222122           0              5    None
                    11/28/2005        $220         2/222122           2             10    None
                    10/02/2006        $317         2/222122           3             12    None
                    07/25/2007        $269         2/232222         N/A           N/Ab    None
                    11/13/2007        $269         4/444432           6              8    Consent order
                                                                                          executed
                                                                                          2/14/2008
                    06/12/2008        $219         4/454532          N/A           N/Ab   None
                    11/17/2008        $219         5/555552            0              5   None
                    Source: OCC ROEs and Reports of Condition and Income (Call Reports).
                    Note: The 2008 ROE did not include any MRAs because OCC was already preparing to close
                           the institution.
                    a
                      Amounts are as of December 31 of each year.
                    b
                      The review scope was limited to follow-up on prior recommendations.


                        Earlier and Stronger Supervisory Response to the Bank’s
                        Concentration in Construction and Land Development Loans Was
                        Warranted

                        OCC’s enforcement action policy states that enforcement action
                        should deal with a bank’s problems at an early stage, before they
                        develop into more serious supervisory issues or adversely affect a
                        bank’s performance and viability. 5 We believe that OCC did not
                        fully adhere to this policy in addressing the deficient conditions at
                        Ocala National Bank. In 2005 and 2006, OCC identified problems
                        with Ocala National Bank’s rapid growth, high concentration in
                        construction and land development loans, and weak credit risk
                        management practices, but took no forceful action to achieve

5
    Bank Supervision Operations—Enforcement Action Policy (PPM 5310-3).

                        Material Loss Review of Ocala National Bank (OIG-09-043)                    Page 12
corrections. Despite OCC’s repeated recommendations that the
bank establish concentration limits and improve its credit risk
management, OCC stopped short of taking enforcement action and
continued to assign the bank a CAMELS composite rating of 2. In
2007, when the examiners found that the bank had incurred
significant loan losses, OCC downgraded the bank’s CAMELS
composite rating to 4 and initiated formal enforcement action
resulting in the February 2008 consent order. Ultimately, the
formal enforcement action was unsuccessful in preventing the
bank’s failure, as problems had become too large and severe to
resolve.

OCC’s 2005 and 2006 Examinations Identified Significant
Problems

At the end of 2004, Ocala National Bank had 452 percent of its
capital concentrated in construction and land development loans.
OCC’s 2005 ROE for the bank reported that construction and land
development loans made-up 93 percent of the bank’s total loan
portfolio. This significant concentration made the bank more
susceptible to a decline in real estate values and to changes to
underwriting standards set by the secondary market. OCC warned
the bank that a downturn in the real estate market could
significantly affect the bank and recommended that the bank’s
board establish concentration tolerances. Instead, the bank
continued to increase its concentration in these loans in 2006; by
year-end, the concentration had increased to 694 percent of the
bank’s capital.

In the 2005 ROE, OCC examiners also concluded that Ocala
National Bank’s board and management were less than fully
effective because of the bank’s rapid growth. Bank management
did not ensure that its systems and processes, especially in the
high-priority areas of credit administration, funding and liquidity,
and asset and liability management, kept pace with its growth.
OCC recommended that the board and management establish
strong formal planning to manage the bank’s growth, with
appropriate plans for capital, funding, and credit.

In addition, OCC examiners criticized the bank in the 2005 ROE for
its heavy reliance on wholesale funding and warned of the liquidity

Material Loss Review of Ocala National Bank (OIG-09-043)        Page 13
risk posed by wholesale funding sources. To finance its rapid loan
growth in 2005, Ocala National Bank relied on volatile wholesale
funding from brokered deposits and loans from the Federal Home
Loan Bank. Wholesale funding made up approximately 21 percent
of the bank’s total liabilities. OCC issued an MRA that directed the
bank to enhance its funding and liquidity risk management systems
and recommended that it consider establishing additional liquidity
risk tolerances, such as limits on brokered funds and guidelines on
wholesale funding.

OCC examiners also identified several issues with Ocala National
Bank’s credit risk management and credit administration practices
in 2005. Examiners found deficient practices in most areas of the
lending function that were caused by unprecedented growth
without the necessary infrastructure and leadership to manage the
growth. OCC issued an MRA that directed the bank to strengthen
its credit administration by correcting the bank’s deficient
practices. These deficient practices included:

•   liberal underwriting standards and instances in which the bank
    did not identify loans that failed to meet supervisory loan-to-
    value requirements,
•   loans for construction of investment homes with loan-to-value
    ratios of 100 percent based on the future sales price, and
•   instances in which the bank failed to obtain appraisals or
    evaluations on underlying real estate.

Despite these concerns, OCC assigned Ocala National Bank a
CAMELS composite rating of 2, the same rating assigned in 2004
when relatively few problems were noted.

In 2006, the bank continued to increase its reliance on wholesale
funding to support its rapid growth. In light of this reliance, OCC
recommended in its 2006 ROE that the bank prepare an adequate
contingency funding plan. In the 2006 ROE, OCC examiners again
criticized the bank’s credit underwriting and administration
practices and, through an MRA, directed the board to improve the
bank’s loan analyses, documentation of real estate evaluations,
identification and reporting of loan policy exceptions, and
acquisition of real estate market data and analysis. In addition, the
examiners criticized the board and management for failing to

Material Loss Review of Ocala National Bank (OIG-09-043)       Page 14
address appraisal regulation violations found in the 2005
examination and for the high level of borrower financial statement
exceptions where loans were approved that did not meet the
bank’s underwriting standards. Despite what appeared to be
further deterioration in these areas based on the examiners’
findings, OCC concluded in the ROE that the bank had improved
credit underwriting and administration practices and deemed board
and management supervision to be satisfactory.

Ocala National Bank’s significant loan growth and high
concentration of construction and land development loans
continued during 2006. In the 2006 ROE, examiners once again
criticized the high concentration, this time as an MRA. The MRA
directed the board to establish detailed risk limits by industry and
loan type—the same recommendation as in 2005. Nevertheless,
OCC now concluded that management had the knowledge and
expertise to manage the concentration risk and deemed board and
management supervision to be satisfactory. In 2006, OCC again
assigned the bank a CAMELS composite rating of 2.

In 2007, OCC took a stronger stance toward Ocala National Bank
for its high concentrations and ineffective concentration risk
management. In the 2007 ROE, examiners now concluded that the
bank operated in an unsafe and unsound manner because of the
high concentration and ineffective concentration risk management
and that the bank’s board and management were deficient. OCC
downgraded the bank’s CAMELS composite rating to 4.

OCC Allowed the Bank’s Continued Growth and Unsound Lending

In 2005, OCC examiners warned Ocala National Bank that a
downturn in the real estate market could significantly affect the
bank. In 2006, examiners expressed concern to the bank that the
Ocala, Florida, real estate market was weakening. However, the
bank continued to rapidly increase its loan portfolio, increasing the
concentration that OCC considered to be unsound. According to
the OCC Comptroller’s Handbook, a loan is generally considered
unsound if the following conditions exist:

• Its liquidation depends on the sale of the underlying real estate.


Material Loss Review of Ocala National Bank (OIG-09-043)        Page 15
                       • The amount of the loan is large relative to the fair value of the
                         property.
                       • The ability of the obligor to pay is questionable. 6

                       OCC’s Southern District office placed Ocala National Bank on the
                       district’s watch list in September 2006. 7 OCC’s strategy was to
                       caution bank management to slow the bank’s growth and address
                       the credit administration issues identified in the 2006 examination
                       and 2007 quarterly review. OCC did not downgrade the bank’s
                       CAMELS composite rating or initiate formal enforcement action
                       until the 2007 examination, when it learned that the bank’s
                       classified assets exceeded 127 percent of tier 1 capital plus ALLL.
                       We believe that OCC should have taken stronger action earlier to
                       address the bank’s unsound real estate lending practices.

                       According to OCC officials, OCC did not elevate its concerns about
                       the bank’s use of liberal underwriting standards before 2007
                       because examiners believed that the associated risk was mitigated
                       by the sale of these loans to secondary market investors. However,
                       this belief proved to be a mistake. In 2007, secondary market
                       investors tightened their underwriting standards and refused to
                       honor prior commitments to purchase loans that Ocala National
                       Bank was already processing. As a result, the bank was left
                       holding loans that it originally intended to sell to the secondary
                       market. When borrowers began to default on those loans, the bank
                       had to foreclose on them, hold the underlying properties as OREO,
                       and sell those properties at a loss.

                       OCC Took Enforcement Action in February 2008

                       OCC warned Ocala National Bank about its high concentration in
                       construction and land development loans and its other deficient
                       practices in 2005 and 2006, but it was not until 2007 that OCC
                       began to take a forceful action against the bank regarding these
                       issues.

6
  OCC, Comptroller’s Handbook, “Real Estate Loans” (Section 213).
7
 Each OCC district maintains a watch list of banks that deserve close attention. The weaknesses of
watch list banks are not pervasive enough for them to be designated as problem banks, and watch list
banks are not adversely rated (i.e., their CAMELS composite rating is 1 or 2). The narrative section of
the watch list discusses problems, supervisory strategy, current status, and any necessary additional
background information.

                       Material Loss Review of Ocala National Bank (OIG-09-043)                  Page 16
                      By July 2007, Ocala National Bank’s level of classified loans had
                      increased dramatically to 55 percent of tier 1 capital plus ALLL, up
                      from 5.1 percent in 2006. Because of the deterioration of the real
                      estate market, OCC examiners projected that the level of classified
                      assets could rise to as high as 160 percent of tier 1 assets plus
                      ALLL by the fourth quarter of 2007. As a result, OCC downgraded
                      Ocala National Bank’s CAMELS asset quality component rating to 3
                      from 2 and the earnings component to 2 from 1. Despite the
                      significant asset quality issues, however, OCC assigned the bank a
                      CAMELS composite rating of 2—which was the same rating
                      assigned in 2004, 2005, and 2006, when examiners noted
                      relatively few problems. The examiners concluded in the
                      examination report that while asset quality was unsatisfactory, the
                      bank was still in satisfactory condition. OCC took neither informal
                      nor formal enforcement action against the bank at that time.

                      Later, in November 2007, OCC performed a full-scope examination
                      of the bank. Based on the results, OCC examiners concluded that
                      Ocala National Bank operated in an unsafe and unsound manner
                      because of its inadequate real estate lending practices, including its
                      uncontrolled growth, high concentration, poor underwriting, and
                      ineffective concentration risk management. Management had
                      allowed the bank to become too concentrated in certain sectors of
                      the residential real estate market, particularly single-family home
                      construction. OCC downgraded the bank’s CAMELS composite
                      rating to 4 from 2 and informed the bank that immediate attention
                      was required to ensure that satisfactory policies and procedures
                      were in place. OCC also started to take formal enforcement action
                      against the bank.

                      On February 14, 2008, OCC entered into a consent order with
                      Ocala National Bank. 8 The consent order required that the bank
                      address deficiencies in management, capital, asset quality,
                      earnings, and liquidity within specified timeframes.




8
 On January 16, 2008, OCC’s Southern District approved the use of a consent order for Ocala National
Bank. OCC’s Jacksonville field office provided a consent order to Ocala National Bank for review on
January 23, 2008.

                      Material Loss Review of Ocala National Bank (OIG-09-043)               Page 17
The bank did not comply with many of the consent order’s
requirements. The bank’s problems were too large and too severe
to resolve without substantial additional capital. By November 30,
2008, classified assets totaled 733 percent of the bank’s tier 1
capital plus ALLL ($56.3 million). At that time, the bank had
depleted all of its capital because of the continued write-downs of
asset values, large ALLL provisions, and ongoing operating losses.
The bank’s equity was also a negative $6.3 million. The bank was
unable to achieve the minimum capital ratios established by the
consent order. It attempted to obtain capital through the sale of a
branch and later through the sale of the entire bank, but neither
sale materialized.

On October 9, 2008, OCC’s Southern District transferred
supervision of Ocala National Bank to the OCC’s Special
Supervision Division in Washington D.C. OCC at the time also
downgraded Ocala National Bank’s CAMELS composite rating to 5.
The role of the Special Supervision Division is to supervise problem
banks through rehabilitation or through other resolution processes
such as the sale, merger, or liquidation of such institutions. By the
time of the transfer, the bank’s financial condition had deteriorated
rapidly and little could be done to rehabilitate the bank.

The OCC Assistant Deputy Comptroller responsible for the
supervision of Ocala National Bank told us that he believed there
was nothing OCC examiners should have done differently, based
on the facts as they knew them at the time. He said that there was
no legal basis for formal enforcement action before 2007 because
the bank was in good financial condition. However, OCC’s
enforcement action policy states that there is a presumption in
favor of formal enforcement action when a bank faces serious
problems or weakness, even if the problems have not yet resulted
in a change of rating or have not been reflected in the bank’s
financial performance or condition. When asked why OCC did not
at least take an informal enforcement action against the bank, the
OCC official told us that an informal enforcement action had the
same level of severity as MRAs that were already presented in the
ROEs. Yet, the MRAs OCC presented never fully resolved the
bank’s significant problems. According to OCC enforcement action
policy, an informal enforcement action typically provides more
explicit direction than an MRA does; in addition, an informal

Material Loss Review of Ocala National Bank (OIG-09-043)       Page 18
                     enforcement action can be promptly followed up with a formal
                     action if there is noncompliance with the informal action.

                     We also asked why OCC did not take more aggressive action to
                     limit Ocala National Bank’s concentration in construction and land
                     development loans. The examiner-in-charge stated that OCC’s
                     interagency guidance on commercial real estate concentration
                     required banks to implement proper risk management controls and
                     the bank had made continuous improvements to its risk
                     management. 9 The examination reports we reviewed, however, did
                     not show that the bank fully developed sound concentration risk
                     management practices. The OCC Assistant Deputy Comptroller told
                     us that the interagency guidance on commercial real estate
                     concentration did not establish concentration limits. Had there been
                     regulatory concentration limits, concentration limits would have
                     been enforceable, according to the official. OCC's Deputy
                     Comptroller of Special Supervision, who did not know the details of
                     the examinations, commented on OCC’s general use of
                     enforcement actions. The OCC official told us that OCC examiners
                     could address concerns about high concentration earlier by taking
                     enforcement action or requiring the bank to obtain more capital by
                     establishing higher individual minimum capital ratios.

                     When asked why OCC waited until February 2008 to take
                     enforcement action, especially after the results of the July 2007
                     review, the examiner-in-charge told us that he felt that OCC did
                     take appropriate action against Ocala National Bank in 2007. He
                     explained that the original purpose of the July 2007 review had
                     been to observe the bank’s progress in addressing the 2006 MRAs
                     but that the review found a significant increase in classified assets.
                     The examiner-in-charge stated that OCC took action by moving up
                     its full-scope examination schedule and downgrading the bank’s
                     CAMELS asset quality and earnings ratings. The examiner-in-charge
                     explained that regardless of whether enforcement action had been
                     taken in July 2007, the damaging loans were already on the bank’s
                     books and the results would likely have been the same.




9
 Concentrations in Commercial Real Estate Lending, “Sound Risk Management Practices,” OCC 2006-
46.

                     Material Loss Review of Ocala National Bank (OIG-09-043)            Page 19
We believe that a sufficient basis existed for OCC to have used its
authorities to take enforcement action against the bank as early as
2005. OCC was aware that in 2004 Ocala National Bank’s CEO
resigned and the owner’s son took over as CEO. As soon as the
owner’s son took over management of the bank, the bank began
aggressively growing in high-risk products. OCC did issue MRAs to
obtain corrective action, but this approach cautioned bank
management to rein in its high-risk growth strategy, which it did
not. We understand that there is judgment involved in deciding
when stronger action should be taken—to give a bank a chance to
respond to the examiners recommendation—but in retrospect a
more forceful approach was needed to control the bank’s
increasingly risky growth strategy.

Owner, Family, and Board Members Benefited Financially While
Bank’s Financial Condition Deteriorated

When Ocala National Bank’s financial condition was rapidly
deteriorating, there were two matters involving the bank that
further exacerbated the bank’s poor financial condition and, at the
same time, financially benefited its owners and board members.

Unallowed Dividend Payments Benefited Owners and Board
Members

In 2007, Ocala National Bank paid $3.9 million in dividends to its
holding company, including dividends that ended up distributed to
the owner, members of his family, and board members. (We could
not determine the precise amount that was paid to the owner and
family members.) That same year, the bank incurred a net
operating loss of $2.3 million.

According to 12 U.S.C. §60, a bank cannot declare cash dividends
if dividends exceed its year-to-date net income plus retained net
income of the preceding 2 years. Accordingly, we believe that
some of the $3.9 million in dividends paid in 2007 may have been
unallowable.

When asked why the dividends were not challenged, the examiner-
in-charge told us that the bank was not under a consent order in
2007 and was within the dividend limits of 12 U.S.C. §60 because

Material Loss Review of Ocala National Bank (OIG-09-043)      Page 20
the bank had positive net income in 2006. The OCC examiners,
however, did not review the dividend disbursements to determine if
they were legally allowable.

Cash Payment to the Owner’s Son Benefited His Company

In 2008, Ocala National Bank paid a company owned by the
owner’s son and other shareholders approximately $1 million. This
amount represented repayment for the company’s loan
participations, some of which were in default. The company was
formed in 2006 as an independent limited liability corporation. Five
of the nine Ocala National Bank board members, who were
involved in approving this payment, also shared ownership of the
company and therefore stood to personally benefit from the bank’s
repurchase of the loan participations.

During our review of the bank’s records, we found that its CEO
created this company to reduce Ocala National Bank’s loan-to-value
position on construction loans by providing secondary financing to
borrowers lacking a down payment. This was accomplished
through the company’s participation in the loans with Ocala
National Bank. The amount Ocala National Bank funded was 85
percent of the underlying property’s estimated value, while the
company financed the other 15 percent. After construction, the
loans were sold to secondary market investors and the company
was repaid the 15 percent plus profit. The company absorbed the
first 15 percent of any loss, while Ocala National Bank took any
remaining loss. This arrangement reduced Ocala National Bank’s
exposure to losses resulting from borrower defaults.

In April 2008, the president of the company, who was also Ocala
National Bank’s CEO, issued a demand letter to Ocala National
Bank for repayment of all loan participations in which the company
was involved. It threatened legal action if its demand was not met.
The loan participations at issue could not be sold to investors and
most were nonperforming. Ocala National Bank’s chairman and
legal counsel reviewed the participation agreements and
determined that it was unclear as to what the bank was obligated
to repay. Nevertheless, in July 2008, the board voted to take back
all loan participations involving the company and assume full risk
for losses associated with the nonperforming loans. Ocala National

Material Loss Review of Ocala National Bank (OIG-09-043)      Page 21
Bank repaid the company approximately $1 million for the loan
participations.

OCC examiners did not investigate the repayment of loan
participations to the company. OCC field and district office
representatives told us that they had very limited knowledge
regarding the arrangement. The consent order required the bank to
inform OCC of any material transactions, but OCC was not notified
of the loan repurchase at the time it occurred.

The OCC Comptroller’s Handbook provides guidance and
examination procedures to assess the adequacy of dividends,
related organizations, and insider activities. Examiners are required
to follow core assessment standards that are minimum procedures
needed to conclude on the bank’s risk profile and CAMELS ratings.
The guidance states that after considering the bank’s risk profile
and any outstanding supervisory issues, examiners could expand
procedures to include a more detailed review of dividends, related
organizations, and insider activities. Regarding Ocala National Bank,
we believe that examiners should have been more concerned about
the bank’s high risk profile and troubled bank status and should
therefore have applied the expanded procedures to include a
detailed review of the adequacy of dividends and related
organizations.

OCC Appropriately Used Prompt Corrective Action

The purpose of PCA is to resolve the problems of insured
depository institutions at the point at which there is the least
possible long-term loss to the Deposit Insurance Fund. PCA gives
federal banking agencies the authority to take certain actions when
an institution’s capital drops to certain levels. PCA also gives
regulators flexibility to discipline institutions based on criteria other
than capital levels to help reduce deposit insurance losses caused
by unsafe and unsound practices.

Although we believe that OCC should have acted much more
forcefully and sooner to address unsafe and unsound practices at
Ocala National Bank, we conclude that OCC did appropriately use
its authority under PCA. As the bank’s capital levels deteriorated,
OCC acted timely to impose PCA restrictions on the institution. As

Material Loss Review of Ocala National Bank (OIG-09-043)          Page 22
authorized by PCA, OCC’s February 2008 consent order with the
bank, among other things, reclassified the bank’s capital category
to adequately capitalized even though the bank’s capital level met
the regulatory definition of well-capitalized. Because of the
adequately capitalized designation, the bank was prohibited from
accepting or renewing brokered deposits without a waiver from
FDIC. The bank requested the waiver. On May 5, 2008, FDIC
granted the bank permission to accept, renew, and roll over $5
million in brokered deposits until August 15, 2008. With respect to
the waiver, we found that Ocala National Bank did comply with
FDIC’s requirement that the bank reduce its brokered deposit
balance.

On November 4, 2008, OCC notified the bank that it had fallen into
the undercapitalized PCA category based on the bank’s
September 30, 2008, call report. The PCA notice required that the
bank abide by the mandatory PCA restrictions, which included
restrictions on capital distributions and management fees.

In accordance with PCA, OCC directed Ocala National Bank to
submit a capital restoration plan by November 30, 2008. The bank,
however, never submitted a capital restoration plan to OCC. On
December 30, 2008, OCC notified the bank that it was critically
undercapitalized. Its condition had become increasingly dire as its
losses mounted. The bank had incurred losses that depleted all of
its capital, resulting in tangible equity capital of negative $10
million by year-end 2008. PCA mandates that a critically
undercapitalized bank be put into receivership or, with the
concurrence of FDIC, conservatorship within 90 days after it
becomes critically undercapitalized. OCC appointed FDIC as
receiver for Ocala National Bank on January 30, 2009.

OCC Southern District’s Internal Quality Assurance Review Found
that Supervision Was Satisfactory and Effective

In February 2009, OCC’s Southern District performed an internal
district quality assurance review on the 2007 examination of Ocala
National Bank. The review, performed by a different field office
within OCC’s Southern District, concluded that the district’s
supervision of Ocala National Bank was satisfactory and effective,
that the examination identified the continuing deterioration of the

Material Loss Review of Ocala National Bank (OIG-09-043)     Page 23
           bank, and that the ROE appropriately discussed the bank’s
           significant weaknesses. The quality assurance review also noted
           that the Jacksonville field office had identified weaknesses over the
           past several examination cycles and that the ratings were
           downgraded in a timely manner.

           We disagree with the quality assurance review’s conclusion that
           OCC supervision of Ocala National Bank was satisfactory and
           effective and that ratings were downgraded in a timely manner. As
           stated previously, we found that from 2005 through 2007, OCC
           examiners repeatedly communicated to bank management
           concerns about rapid loan growth, high concentration in
           construction and land development loans, and poor credit
           underwriting and administration. Despite these concerns, however,
           OCC did not take strong action to force the bank to correct the
           problems until 2008. In addition, we believe that OCC was not
           timely in its downgrading of Ocala National Bank’s CAMELS
           composite and component ratings.

           According to OCC headquarters officials, an internal lessons-
           learned review of the failure of Ocala National Bank was in
           process. The purpose of that review is to assess both the causes
           of the failure and OCC’s supervision of the bank. At the time of our
           audit, OCC had not yet completed the review. 


Recommendations
           Our material loss review of Ocala National Bank is the fourth such
           review we have performed of a failed OCC-regulated financial
           institution during the current financial crisis. Appendix 6 lists the
           other three material loss reviews and our associated
           recommendations. OCC management agreed with the prior
           recommendations and has taken or is taking corrective actions to
           address them.

           Based on our material loss review of Ocala National Bank, we
           recommend that the Comptroller of Currency do the following:

           1. Caution examiners and their supervisors that when a bank’s
              condition has deteriorated, it is incumbent on examiners to

           Material Loss Review of Ocala National Bank (OIG-09-043)        Page 24
    properly support and document in examination work papers the
    CAMELS component and composite ratings assigned, including
    those that may not have changed from prior examinations, as
    well as support a decision not to take an enforcement action.

    Management Response

    OCC agreed it is critical for examiners to always properly
    support and document CAMELS and component ratings, as well
    as any decision to take or not take an enforcement action. OCC
    senior management used the “lessons learned” in earlier bank
    failures to illustrate the importance of being assertive in
    identifying and following through on identified weaknesses in a
    timely manner. OCC management also reiterated that
    compliance with OCC’s policy on workpaper documentation is
    particularly important in problem bank situations. OCC plans to
    continue to emphasize this message through district
    management meetings, future examiner conference calls, and as
    other opportunities arise.

2. Remind examiners that it is prudent to expand examination
   procedures for troubled or high-risk banks to review the
   appropriateness of (a) dividends and (b) payments to related
   organizations, particularly when the dividends or payments may
   benefit bank management and board members. In this regard,
   OCC should reassess, and revise as appropriate, its examination
   guidance for when expanded reviews of dividends and related
   organizations should be performed.

    Management Response

    OCC responded that heightened scrutiny of certain dividends
    and payments to related organizations is appropriate. OCC
    believes its existing guidance is sufficient to compel examiners
    to perform expanded reviews of dividends and payments to
    related organizations when appropriate. OCC plans to use one
    of its regular national conference calls to reinforce to examining
    staff that it is prudent to expand examination procedures for
    dividends and related organizations when warranted, particularly
    when payments may benefit bank management or board
    members.

Material Loss Review of Ocala National Bank (OIG-09-043)       Page 25
OIG Comment

OCC’s actions, both taken and planned, meet the intent of our
recommendations.


                                  ******

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (617) 223-8640 or Mark Ossinger, Audit Manager,
at (617) 223-8643. Major contributors to this report are listed in
Appendix 7.


/s/
Donald P. Benson
Audit Director




Material Loss Review of Ocala National Bank (OIG-09-043)    Page 26
                        Appendix 1
                        Objectives, Scope, and Methodology




                        Our objectives were to determine the cause of Ocala National
                        Bank’s failure and assess the bank’s supervision by the Office of
                        the Comptroller of the Currency (OCC). We conducted this material
                        loss review of Ocala National Bank, of Ocala, Florida, in response
                        to our mandate under section 38(k) of the Federal Deposit
                        Insurance Act, as amended. 10 This section provides that if a
                        Deposit Insurance Fund incurs a material loss with respect to an
                        insured depository institution, the inspector general for the
                        appropriate federal banking agency is to prepare a report to the
                        agency, which shall

                        •    ascertain why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    review the agency’s supervision of the institution, including
                             implementation of the Prompt Corrective Action provisions of
                             section 38; and
                        •    make recommendations for preventing any such loss in the
                             future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within
                        6 months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of Ocala National Bank based on
                        the loss estimate by the Federal Deposit Insurance Corporation
                        (FDIC). As of August 7, 2009, FDIC estimated that Ocala National
                        Bank’s failure would cost the Deposit Insurance Fund $99.6
                        million.

                        To assess the adequacy of OCC’s supervision of Ocala National
                        Bank, we determined (1) when OCC first identified Ocala National
                        Bank safety and soundness problems, (2) the gravity of the
                        problems, and (3) the supervisory response OCC took to get the
                        bank to correct the problems. We also determined whether OCC
                        (1) might have discovered problems earlier; (2) identified and
                        reported all the problems; and (3) issued comprehensive, timely,


10
     12 U.S.C. § 1831o(k).

                        Material Loss Review of Ocala National Bank (OIG-09-043)        Page 27
Appendix 1
Objectives, Scope, and Methodology




and effective enforcement actions that dealt with any unsafe or
unsound activities. We performed the following work:

•   We determined that the time period covered by our audit would
    be March 29, 2004, through Ocala National Bank’s failure on
    January 30, 2009. This period included three safety and
    soundness examinations prior to OCC’s identifying Ocala
    National Bank as a troubled institution and assigning it a
    CAMELS composite rating of 4. We reviewed OCC supervisory
    files and records for Ocala National Bank from 2004 through
    2008. We analyzed examination reports, supporting
    workpapers, and related supervisory and enforcement
    correspondence. We performed these analyses to gain an
    understanding of the problems identified, the approach and
    methodology OCC used to assess the bank’s condition, and the
    regulatory action OCC used to compel bank management to
    address deficient conditions. We did not conduct an
    independent or separate detailed review of the external auditor’s
    work or associated workpapers other than those incidentally
    available through the supervisory files.

•   We interviewed and discussed various aspects of the
    supervision of Ocala National Bank with OCC officials,
    examiners, and attorneys to obtain their perspective on the
    bank’s condition and the scope of the examinations.

•   We interviewed personnel with FDIC’s Division of Resolutions
    and Receiverships who were involved in the receivership
    process, which was conducted after Ocala National Bank’s
    closure and the appointment of FDIC as receiver.

•   We assessed OCC’s actions based on its internal guidance and
    the requirements of the Federal Deposit Insurance Act (12
    U.S.C. §1820 et seq.).

We conducted our fieldwork from March 2009 through July 2009.
We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the

Material Loss Review of Ocala National Bank (OIG-09-043)      Page 28
Appendix 1
Objectives, Scope, and Methodology




evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of Ocala National Bank (OIG-09-043)     Page 29
Appendix 2
Background




Ocala National Bank History and Corporate Structure

Ocala National Bank, Ocala, Florida, was chartered by OCC in
1986. The bank had its main office and three branches in Marion
County, Florida. ONB Financial Services, Inc., a one-bank holding
company, wholly owned the bank. As of April 2008, the chairman
and his two sons together owned 92.27 percent of the holding
company. The bank’s directors owned the remaining shares. The
bank was not publically traded. At the time of its failure on
January 30, 2009, Ocala National Bank had approximately $224
million in assets.

Appendix 4 contains a chronology of significant events regarding
Ocala National Bank.

Types of Examinations Conducted by OCC

OCC conducts various types of bank examinations including safety
and soundness, compliance, and information technology.

OCC must schedule full-scope, onsite examinations of insured
banks once during either a 12-month cycle or an 18-month cycle.
All de novo banks are subject to the 12-month examination cycle.
The 12-month cycle should continue until the bank has had two
full-scope, on-site examinations and achieves stability with regard
to earnings, core business operations, and management.

An 18-month examination interval applies to insured banks with
total assets of $250 million or less that
• for the most recent examination received a CAMELS composite
   rating of 1 or 2 and a compliance rating of 1 or 2;
• for the most recent examination received a CAMELS
   Management component rating of 1 or 2;
• are well-capitalized;
• are not currently subject to a formal enforcement proceeding or
   order by OCC or FDIC; and
• have not undergone a change in control during the 12-month
   period since completion of the last full-scope, onsite
   examination.



Material Loss Review of Ocala National Bank (OIG-09-043)      Page 30
Appendix 2
Background




During a full-scope examination, examiners conduct an onsite
examination and rate all CAMELS components. The six components
are Capital Adequacy, Asset Quality, Management, Earnings,
Liquidity, and Sensitivity to Market Risk (CAMELS). OCC then
assigns each bank a composite rating based on its assessment of
the overall condition and level of supervisory concern. The rating
scale ranges from 1 to 5, with a rating of 1 indicating the strongest
performance and risk management practices relative to the bank’s
size, complexity, and risk profile and the level of least supervisory
concern. A 5 rating indicates the most critically deficient level of
performance; inadequate risk management practices relative to the
bank’s size, complexity, and risk profile; and the greatest
supervisory concern. Generally, component ratings reflect
examination findings and an examiner’s assessment of the bank’s
performance in the six key performance groups that are common to
all banks.

Enforcement Actions Available to OCC

OCC performs various examinations of banks resulting in the
issuance of reports of examinations (ROE) identifying areas of
concern. OCC uses informal and formal enforcement actions to
address violations of laws and regulations and to address unsafe
and unsound practices.

Informal Enforcement Actions

When a bank’s overall condition is sound but it is necessary to
obtain written commitments from its board of directors or
management to ensure that they correct identified problems and
weaknesses, OCC may use informal enforcement actions. Informal
enforcement actions provide a bank with more explicit guidance
and direction than an ROE normally contains but are generally not
legally binding. OCC commonly uses informal actions for problems
in
• well- or adequately capitalized banks and in
• banks with a composite rating of 1, 2, or 3.

Informal actions notify the board and management that OCC has
identified problems that warrant attention. A record of informal
action is beneficial in case formal action is necessary later.

Material Loss Review of Ocala National Bank (OIG-09-043)      Page 31
Appendix 2
Background




If a bank violates or refuses to comply with an informal action,
OCC cannot enforce compliance in federal court or assess civil
money penalties for noncompliance. However, OCC may initiate
more severe enforcement action against a noncompliant bank. The
effectiveness of informal action depends in part on the willingness
and ability of a bank to correct deficiencies that OCC notes.
Informal enforcement actions include commitment letters,
memoranda of understanding, and Part 30 safety and soundness
plans. Commitment Letter and memoranda of understanding
contain specific bank commitments to take corrective actions in
response to problems or concerns identified by OCC in its
supervision of a bank. A Part 30 informal enforcement action
requires a bank to submit a compliance plan for OCC approval that
outlines the steps it will take and timeframes to correct identified
deficiencies. Unlike formal enforcement actions, informal actions
are not disclosed to the public.

Formal Enforcement Actions

Formal enforcement actions are enforceable under the Federal
Deposit Insurance Act. They are appropriate when a bank has
significant problems, especially when there is a threat of harm to
the bank, depositors, or the public. OCC is to use formal
enforcement actions when informal actions are considered
inadequate, ineffective, or otherwise unlikely to secure correction
of safety and soundness or compliance problems. Because formal
actions are enforceable, OCC can assess civil money penalties
against banks and individuals for noncompliance with formal
agreements or final orders. OCC can also request a federal court to
require a bank to comply with an order. Unlike informal actions,
formal enforcement actions are public. Formal enforcement actions
include cease and desist orders, civil money penalties, and Prompt
Corrective Action directives.

OCC Enforcement Guidelines

Consideration for determining whether to use informal action or
formal action include

•   the overall condition of the bank;

Material Loss Review of Ocala National Bank (OIG-09-043)      Page 32
                        Appendix 2
                        Background




                        •   the nature, extent, and severity of the bank’s problems and
                            weaknesses;
                        •   the commitment and ability of bank management to correct the
                            identified deficiencies; and
                        •   the existence of previously identified but unaddressed problems
                            or weaknesses. 11




11
     Bank Supervision Operations—Enforcement Action Policy (PPM 5310-3).

                        Material Loss Review of Ocala National Bank (OIG-09-043)     Page 33
                    Appendix 3
                    Glossary of Terms




Allowance for loan and                  A valuation reserve established and maintained by
lease losses                            charges against a bank’s operating income. As a
                                        valuation reserve, it is an estimate of uncollectible
                                        amounts that is used to reduce the book value of
                                        loans and leases to the amount that is expected to be
                                        collected. These valuation allowances are established
                                        to absorb unidentified losses inherent in the
                                        institution’s overall loan and lease portfolio.

Brokered deposits                       Any deposit that is obtained, directly or indirectly,
                                        from a deposit broker. The bank solicits deposits by
                                        offering rates of interest that are significantly higher
                                        than the rates offered by other insured depository
                                        institutions in its normal market area. Under
                                        12 U.S.C. § 1831(f) and 12 C.F.R. § 337.6, the use
                                        of brokered deposits is limited to well-capitalized
                                        insured depository institutions and, with a waiver
                                        from FDIC, to adequately capitalized institutions.
                                        Undercapitalized institutions are not permitted to
                                        accept brokered deposits.

Call report                            A quarterly report of income and financial condition
                                       that banks file with their regulatory agency. The
                                       contents of a call report include consolidated detailed
                                       financial information on assets, liabilities, capital, and
                                       loans to executive officers, as well as income,
                                       expenses, and changes in capital accounts.

CAMELS                                 An acronym for performance rating components for
                                       financial institutions: Capital adequacy, Asset quality,
                                       Management administration, Earnings, Liquidity, and
                                       Sensitivity to market risk. Numerical values range from
                                       1 to 5, with 1 being the best rating and 5 being the
                                       worst rating.

Capital restoration plan               Under the Prompt Corrective Action (PCA)
                                       requirements of the Federal Deposit Insurance Act, as
                                       amended, a plan to be submitted to the appropriate
                                       federal banking agency by any undercapitalized
                                       insured depository institution. A capital restoration
                                       plan specifies the steps the insured depository

                    Material Loss Review of Ocala National Bank (OIG-09-043)             Page 34
                     Appendix 3
                     Glossary of Terms




                                        institution is to take to become adequately capitalized,
                                        the levels of capital to be attained during each year in
                                        which the plan is in effect, how the institution will
                                        comply with the restrictions or requirements then in
                                        effect, the types and levels of activities in which the
                                        institution will engage, and any other information that
                                        the federal banking agency may require.

Classified assets                        Assets rated as substandard, doubtful, and loss.
                                         Substandard assets are inadequately protected by the
                                         current worth and paying capacity of the obligor or of
                                         the collateral pledged, if any. A doubtful asset has all
                                         the weaknesses of a substandard asset with the
                                         added characteristic that the weaknesses make
                                         collection or liquidation in full questionable and
                                         improbable. A loss asset is considered uncollectible
                                         and of such little value that continuation as a
                                         bankable asset is not warranted.

Commercial real estate                  Loans secured by raw land, land development, and
loans                                   construction. Commercial real estate includes one-to
                                        four-family residential construction, multifamily
                                        property, and nonfarm nonresidential property where
                                        the primary or a significant source of repayment is
                                        from rental income associated with the property (i.e.,
                                        loans for which 50 percent or more of the source of
                                        repayment comes from third-party, nonaffiliated,
                                        rental income) or the proceeds of the sale, refinancing,
                                        or permanent financing of the property.

Concentration risk                      Risk in a loan portfolio that arises when a
                                        disproportionate number of an institution’s loans are
                                        concentrated in one or a small number of financial
                                        sectors, geographical areas, or borrowers. If loans are
                                        more broadly distributed, weaknesses confined to one
                                        or a small number of sectors, areas, or borrowers
                                        would pose a smaller risk to the institution’s financial
                                        health.


Consent order                           The title given by OCC to an order to cease and

                     Material Loss Review of Ocala National Bank (OIG-09-043)            Page 35
                   Appendix 3
                   Glossary of Terms




                                      desist, which is entered into and becomes final
                                      through the board of directors’ execution of the bank
                                      of a stipulation and consent document on behalf of
                                      the bank. Its provisions are set out in article-by-article
                                      form and prescribe restrictions and corrective and
                                      remedial measures necessary to correct deficiencies or
                                      violations in the bank and return it to a safe and sound
                                      condition.

De novo                               A newly chartered bank opened less than 3 years.

Division of Resolutions               A division within FDIC that is charged with resolving
and Receiverships                     failing and failed financial institutions, which includes,
                                      among other important responsibilities, ensuring
                                      depositors’ have prompt access to their insured funds.

District Supervision                  An OCC committee that ensures that OCC bank
Review Committee                      supervision and enforcement policies are applied
                                      effectively and consistently. The committee advises
                                      the deputy comptrollers on bank supervision and
                                      enforcement cases by providing recommendations on
                                      supervisory strategies and enforcement actions.

Federal Home Loan Bank                A government-sponsored enterprise chartered by
                                      Congress in 1932 whose purpose is to support
                                      residential mortgage lending and community
                                      investment at the local level by providing primary
                                      direct loans to its more than 8,000 member financial
                                      institutions (primarily banks and thrift institutions).
                                      Each member institution is a shareholder in 1 or more
                                      of 12 regional Federal Home Loan Banks, which are
                                      privately capitalized, separate corporate entities. The
                                      system’s Office of Finance is its centralized debt
                                      issuance facility. The funds obtained through debt
                                      issuance are used to support Federal Home Loan Bank
                                      activities.

Formal agreement                      A type of formal enforcement action authorized by
                                      statute. Formal agreements are generally more severe
                                      than informal actions and are disclosed to the public.
                                      Formal actions are also enforceable through the

                   Material Loss Review of Ocala National Bank (OIG-09-043)            Page 36
                     Appendix 3
                     Glossary of Terms




                                        assessment of civil money penalties.

Individual minimum capital              Established under OCC authority, a minimum level of
ratio                                   capital for a banking institution that OCC considers to
                                        be necessary or appropriate in light of the particular
                                        circumstances of the institution.

Loan-to-value                           A ratio for a single loan and property calculated by
                                        dividing the total loan amount at origination by the
                                        market value of the property securing the credit plus
                                        any readily marketable collateral or other acceptable
                                        collateral. In accordance with Interagency Guidelines
                                        for Real Estate Lending Policies, institutions’ internal
                                        loan-to-value limits should not exceed the legal lending
                                        limit: (1) 65 percent for raw land; (2) 75 percent for
                                        land development; (3) 80 percent for commercial,
                                        multifamily, and other nonresidential loans; and (4) 85
                                        percent for one-to-four-family residential loans. The
                                        guidelines do not specify a limit for owner-occupied
                                        one-to-four-family properties and home equity loans.
                                        However, when the loan-to-value ratio on such a loan
                                        equals or exceeds 90 percent at the time of
                                        origination, the guidelines state that the bank should
                                        require mortgage insurance or readily marketable
                                        collateral.

Loan participation                      The sharing of a loan by a group of banks that join
                                        together to make a loan too large for any one of the
                                        banks to handle. Loan participation is a convenient
                                        way for smaller banks to book loans that would
                                        otherwise exceed their legal lending limits (see loan-to-
                                        value for limits).

Matter requiring attention              A practice noted during an OCC examination of the
                                        bank that deviates from sound governance, internal
                                        control, and risk management principles. The matter,
                                        if not addressed, may adversely affect the bank’s
                                        earnings or capital, risk profile, or reputation or may
                                        result in substantive noncompliance with laws and
                                        regulations, internal policies or processes, OCC
                                        supervisory guidance, or conditions imposed in writing

                     Material Loss Review of Ocala National Bank (OIG-09-043)           Page 37
                 Appendix 3
                 Glossary of Terms




                                     in connection with the approval of any application or
                                     other request by a bank. Matters requiring attention
                                     are not enforcement actions, but failure by a bank’s
                                     board and management to address a matter requiring
                                     attention could lead to an enforcement action.

Nonperforming loans                  Loans that are not earning income and for which (1)
                                     payment of principal and interest is no longer
                                     anticipated, (2) principal or interest is 90 days or more
                                     delinquent, or (3) the maturity date has passed and
                                     payment in full has not been made.

Other real estate owned              Real properties that a bank has acquired that do not
                                     constitute its banking facilities. Such properties
                                     include real estate acquired in full or partial
                                     satisfaction of a debt previously contracted and are
                                     subject to specific holding periods, disposition
                                     requirements, and appraisal requirements.


Prompt Corrective Action             A framework of supervisory actions, set forth in
                                     12 U.S.C. § 1831o, for insured banks that are not
                                     adequately capitalized. It was intended to ensure that
                                     action is taken when an institution becomes financially
                                     troubled in order to prevent a failure or minimize
                                     resulting losses. These actions become increasingly
                                     severe as a bank falls into lower capital categories.
                                     The capital categories are well-capitalized, adequately
                                     capitalized, undercapitalized, significantly
                                     undercapitalized, and critically undercapitalized. The
                                     Prompt Corrective Action minimum requirements are
                                     as follows:

                 Capital             Total              Tier 1/                   Tier 1/
                 Category            Risk-Based         Risk-Based                Leverage
                 Well-capitalizeda   10% or       and   6% or greater       and   5% or greater
                                     greater
                 Adequately          8% or        and   4% or greater       and   4% or greater
                 capitalized         greater                                      (3% for 1-rated)
                 Undercapitalized    Less than    or    Less than 4%        or    Less than 4% (except
                                     8%                                           for 1-rated)



                 Material Loss Review of Ocala National Bank (OIG-09-043)                     Page 38
                  Appendix 3
                  Glossary of Terms




                  Significantly        Less than or       Less than 3% or          Less than 3%
                  undercapitalized     6%
                  Critically           Has a ratio of tangible equity to total assets that is equal to or
                  undercapitalized     less than 2 percent.
                  a
                   To be well-capitalized, a bank also cannot be subject to a higher capital requirement
                  imposed by OCC.


Safety and soundness                  The part of an examination that includes a review and
examination                           evaluation of each of the CAMELS component ratings
                                      (see explanation of CAMELS, above).

Tangible equity                       The amount of tier 1 capital plus outstanding
                                      cumulative perpetual preferred stock minus all
                                      intangible assets except mortgage servicing assets to
                                      the extent permitted in tier 1 capital.

Tier 1 capital                        Common shareholder’s equity (common stock,
                                      surplus, and retained earnings), noncumulative
                                      perpetual preferred stock, and minority interests in the
                                      equity accounts of consolidated subsidiaries.

Uniform Bank Performance              An analytical tool created by the Federal Financial
Reports (UBPR)                        Institutions Examinations Council to help supervise
                                      and examine financial institutions. A UBPR is produced
                                      quarterly for each commercial bank that is supervised
                                      by the Board of Governors of the Federal Reserve
                                      System, the Federal Deposit Insurance Corporation, or
                                      the Office of the Comptroller of the Currency. The
                                      performance and composition data contained in the
                                      report are presented in the form of ratios,
                                      percentages, and dollar amounts computed mainly
                                      from call reports submitted by the bank. The UBPR
                                      also provides comparisons of an individual bank's
                                      performance and balance sheet structure with similarly
                                      sized banks.




                  Material Loss Review of Ocala National Bank (OIG-09-043)                           Page 39
                   Appendix 4
                   Chronology of Significant Events




The following chronology describes significant events in the history of Ocala National
Bank, including examinations conducted and enforcement actions taken by the Office
of the Comptroller of the Currency (OCC). Appendix 5 contains additional information
on the results of examinations, including any significant safety and soundness matters
requiring attention, and recommended actions.

Date                   Event
2/7/1986               Ocala National Bank is established.
1/2/1997               ONB Financial Services, Inc., is established as a bank holding company.
                       Ocala National Bank is reorganized.
10/15/1997             Ocala National Bank is downgraded to a CAMELS composite rating of 4
                       from 2 in its previous full-scope exam conducted in 1996. The bank is
                       placed under a formal agreement because of its uncontrolled loan growth
                       led by former management and its resultant subsequent losses.
9/3/1998               Ocala National Bank is placed under a revised, more stringent formal
                       agreement when OCC finds that the bank is noncompliant with 8 of the 9
                       substantive articles from the formal agreement in 1997. The bank’s
                       problems continue in the loan administration area.
9/15/1998              Ocala National Bank is found to be in violation of 12 U.S.C. § 375 and
                       375b and 12 C.F.R. § 215.4, in which the majority owners had participated
                       in preferential transactions involving the sale of bank-owned property.
                       OCC’s Southern District decides to assess civil money penalties (CMP).
5/18/1999              CMP of $5,000 is assessed against the majority owner of Ocala National
                       Bank and CMPs of $2,500 are assessed against each of the majority
                       owner’s two sons. The purpose of the CMPs is to penalize the owners for
                       improper insider transactions and to deter future improper actions.
10/27/1999             OCC conducts a full-scope examination on Ocala National Bank and assigns
                       a CAMELS composite rating of 3.
11/16/2000             OCC conducts a full-scope examination on Ocala National Bank and assigns
                       a CAMELS composite rating of 3.
11/1/2001              OCC terminates the formal agreement against Ocala National Bank based
                       on OCC’s determination that the bank is operating with competent
                       management, its financial condition is stable, and proper systems and
                       controls are in place.
11/2/2001              OCC conducts a full-scope examination on Ocala National Bank and assigns
                       a CAMELS composite rating of 2.
12/2/2002              OCC conducts a full-scope examination on Ocala National Bank and assigns
                       a CAMELS composite rating of 2.
1/22/2004              The majority owner’s son is named the President and Chief Executive
                       Officer of Ocala National Bank.
3/22/2004              OCC conducts a full-scope examination on Ocala National Bank and assigns
to                     a CAMELS composite rating of 2.
4/9/2004
11/28/2005             OCC conducts a full-scope examination on Ocala National Bank. OCC finds
to                     that the bank’s credit administration is weak as well as many instances of
12/8/2005              superficial loan underwriting. OCC also found that credit risk management
                       is deficient for the size and complexity of the portfolio and planned future

                   Material Loss Review of Ocala National Bank (OIG-09-043)                  Page 40
             Appendix 4
             Chronology of Significant Events




Date             Event
                 growth. The bank’s CAMELS composite rating remains a 2.
9/6/2006         OCC adds Ocala National Bank to its Southern District’s Watch List after
                 the bank informs OCC that it failed to keep its promise of curtailing growth
                 and growing 35 percent.
9/7/2006         OCC conducts a full-scope examination to evaluate the bank's overall
to               condition and the board of directors and management's ability to effectively
10/26/2006       identify, measure, monitor, and control risk. The bank’s CAMELS composite
                 rating remains a 2.
7/23/2007        OCC finds the bank’s asset quality has deteriorated. Total classified assets
                 have risen in a year to 55 percent from 8 percent. OCC estimates that
                 deterioration in the loan portfolio could increase total classified assets to
                 160 percent from 130 percent by the fourth quarter of 2007. OCC
                 downgrades the bank’s asset quality rating to 3 from 2 and earnings to 2
                 from 1.
11/13/2007       OCC assesses the bank’s overall condition, updates component and risk
to               assessment ratings, gauges the extent of asset quality problems, evaluates
12/12/2007       problem loan management processes and skills, reassesses underwriting
                 and risk selection, and evaluates general credit administration in a full-
                 scope exam. OCC assigns the bank a CAMELS composite rating of 4 at the
                 direction of the Southern District Supervisory Review Committee (DSRC) on
                 January 16, 2008.
1/16/2008        DSRC meets to review the OCC Jacksonville field office’s recommendation
                 to downgrade Ocala National Bank to CAMELS composite rating to 3 from
                 2 along with a proposed formal agreement. Instead, the DSRC approves a
                 CAMELS composite rating of 4 and the use of a consent order.
1/22/2008        Ocala National Bank is added to OCC’s Problem Bank Report.
1/23/2008        OCC provided Ocala National Bank with the consent order.
2/14/2008        Ocala National Bank enters into a consent order with OCC. The bank is
                 reclassified to adequately capitalized, although it capital ratios reflect the
                 well-capitalized category for Prompt Corrective Action (PCA) purposes. One
                 provision of the consent order requires the bank to achieve and maintain a
                 Tier 1 risk-based ratio of 13 percent and a leverage ratio of 9 percent by
                 June 30, 2008.
7/15/2008        Ocala National Bank is unable to meet the minimum capital ratio
                 requirements set by the consent order. OCC extends the capital
                 requirement due date to September 15, 2008.
8/6/2008         Ocala National Bank’s classified assets increased to 202 percent in July
                 2008. OCC’s Jacksonville field office proposes maintaining a CAMELS
                 composite rating of 4 and downgrading asset quality to 5. DSRC concurs
                 with the field office recommendation but also downgrades the earnings
                 component to 5.
9/16/2008        OCC extends the capital requirement due date to November 30, 2008.
10/9/2008        DSRC concurs with the Jacksonville field office’s recommendation to
                 downgrade Ocala National Bank’s CAMELS composite rating to 5 and to
                 transfer supervision of the institution to OCC’s Special Supervision Division
                 in Washington DC.
10/15/2008       OCC downgrades Ocala National Bank’s CAMELS composite rating to a 5.

             Material Loss Review of Ocala National Bank (OIG-09-043)                   Page 41
                       Appendix 4
                       Chronology of Significant Events




Date                       Event
11/4/2008                  OCC notifies Ocala National Bank that the bank’s PCA capital category is
                           undercapitalized based on the bank’s call report for the period ending
                           September 30, 2008 (the call report was filed October 28, 2008). OCC
                           requires the bank to submit a capital restoration plan by November 30,
                           2008. The bank, however, never submits a capital restoration plan to OCC.
11/28/2008                 Ocala National Bank notifies OCC that it is unable to increase capital to the
                           required levels by November 30, 2008.
12/30/2008                 Ocala National Bank becomes critically undercapitalized for PCA purposes
                           based on financial information as of November 30, 2008.
1/30/2009                  Ocala National Bank is closed by OCC and FDIC is named Receiver. FDIC
                           estimates the cost to its Deposit Insurance Fund will be $99.6 million
Source: OIG analysis of OCC, FDIC, and Ocala National Bank data.




                       Material Loss Review of Ocala National Bank (OIG-09-043)                   Page 42
                    Appendix 5
                    OCC Ocala National Bank Examinations, Significant Issues, and Enforcement
                    Actions


This appendix summarizes the Office of the Comptroller of the Currency’s (OCC)
safety and soundness and targeted examinations of Ocala National Bank from March
2004 through November 2008 and provides information on the significant results of
those examinations. We list the following items from the reports of examination (ROE):
(1) matters requiring attention and (2) other issues/. Generally, matters requiring
attention represent the most significant items requiring corrective action and are more
serious.

Date
examination   CAMELS        Assets        Significant safety and soundness corrective     Enforcement
started       rating        ($Millions)   actions and other issues cited in ROE           action
3/29/2004     2/222122         $110       Matters requiring attention                        None
                                          • None identified.

                                          Other issues/recommendations
                                          • Ensure loan officers provide more
                                             comprehensive loan presentations on
                                             larger credit requests.
                                          • Enhance allowance for loan and lease
                                             losses (ALLL).
                                          • Ensure comprehensive post-funding
                                             analyses are performed.
                                          • Develop methodology that identifies
                                             and tracks significant underwriting
                                             exceptions.
                                          • Ensure appraisal reviews are completed
                                             prior to loan funding. Reviews are to
                                             include
                                             o valid appraisal assumptions, and
                                             o independent reviewer.

11/28/2005     2/222122        $220       Matters requiring attention                        None
                                          • Asset Quality – Immediately improve
                                             credit administration. Practices in credit
                                             granting and credit risk management to
                                             be addressed and/or improved including
                                             o liberal underwriting that included
                                                 spec homes financed at 100
                                                 percent of the retail selling price,
                                             o incomplete and superficial
                                                 underwriting analyses,
                                             o missing real estate appraisals and
                                                 evaluations,
                                             o noncompliance with supervisory
                                                 loan-to-value requirements,
                                             o incomplete annual loan reviews,
                                             o outdated loan policy (policy does

                    Material Loss Review of Ocala National Bank (OIG-09-043)                   Page 43
                   Appendix 5
                   OCC Ocala National Bank Examinations, Significant Issues, and Enforcement
                   Actions


Date
examination   CAMELS       Assets        Significant safety and soundness corrective   Enforcement
started       rating       ($Millions)   actions and other issues cited in ROE         action
                                                 not reflect current lending
                                                 practices),
                                             o incomplete credit risk reports
                                                 (reports do not identify volumes,
                                                 trends, concentrations, exceptions
                                                 and loan officer performance), and
                                             o incomplete ALLL methodology.
                                         •   Liquidity Management – Upgrade
                                             funding analytics in order to have
                                             comprehensive cash flow forecasting
                                             analysis.

                                         Other issues/recommendations
                                         • Establish board approved tolerances for
                                            real estate lending in the Ocala market
                                            and manage exposures when tolerances
                                            are approached or when evidence of a
                                            downturn in real property values.
                                         • Reduce high credit and collateral loan
                                            exceptions.
                                         • Establish concentration tolerances, loan
                                            mix, and exceptions.
                                         • Contract out annual loan reviews.
                                         • Enhance existing strategic planning
                                            process to include detailed capital,
                                            funding, and credit plans.
                                         • Develop strong risk management
                                            systems.
                                         • Ensure monthly Asset and Liability
                                            Committee (ALCO) meetings are held.
                                         • Enhance the funds management policy
                                            to include additional liquidity risk
                                            tolerances such as limits on brokered
                                            funds and guidelines on wholesale
                                            funding.
                                         •   Continue to add off-balance sheet
                                             funds providers as the bank grows.
                                             Seek additional backup funding lines as
                                             well as greater diversification among
                                             providers.
                                         •   Address the following violations:
                                             o 12 C.F.R. §34.43(a) – Obtain
                                                 appraisal prior to loan approval
                                                 when required,
                                             o 12 C.F.R. §34.43(b) – Obtain

                   Material Loss Review of Ocala National Bank (OIG-09-043)                 Page 44
                    Appendix 5
                    OCC Ocala National Bank Examinations, Significant Issues, and Enforcement
                    Actions


Date
examination   CAMELS        Assets        Significant safety and soundness corrective     Enforcement
started       rating        ($Millions)   actions and other issues cited in ROE           action
                                                  evaluation of real property prior to
                                                  loan approval when appraisal is not
                                                  required,
                                              o 12 C.F.R. §203.4(a) – Collect and
                                                  record data as required by the
                                                  Home Mortgage Disclosure Act, and
                                              o 12 C.F.R. §30, Appendix B (III) (B)
                                                  – Implement standards for
                                                  safeguarding customer information.
10/02/2006     2/222122        $317       Matters requiring attention                        None
                                          • Formalize strategic planning.
                                          • Improve or further refine credit
                                             administration because of continued
                                             significant loan growth, including the
                                             following:
                                             o Credit Granting Practices – Enhance
                                                  pre-funding analysis and monitor
                                                  market data and conditions. Ensure
                                                  real estate evaluations are in
                                                  writing, independent, and provide
                                                  sufficient support for the value.
                                             o Credit Risk Management Practices –
                                                  Provide more detailed risk limits
                                                  including specific limits by industry
                                                  and loan type. Implement a system
                                                  to identify and report policy
                                                  exceptions.
                                             o Construction Lending – Set limits
                                                  on construction lines of credit.
                                                  Ensure better documentation in the
                                                  construction loan files. Provide
                                                  management and the board better
                                                  market analysis and data on
                                                  construction lending.
                                          • Improve IT management to comply with
                                             several regulations and OCC guidance.
                                          Other issues/recommendations
                                          • Expand the bank's process to better
                                             identify and reduce the level of
                                             exceptions.


                    Material Loss Review of Ocala National Bank (OIG-09-043)                   Page 45
                   Appendix 5
                   OCC Ocala National Bank Examinations, Significant Issues, and Enforcement
                   Actions


Date
examination   CAMELS       Assets        Significant safety and soundness corrective      Enforcement
started       rating       ($Millions)   actions and other issues cited in ROE            action
                                         •   Enhance loan grading system and
                                             change the bank's definition of special
                                             mention to coincide with regulatory
                                             guidance.
                                         •   Improve the ALLL methodology through
                                             o developing more support for the
                                                  qualitative factors,
                                             o using a range of best and worst
                                                  case scenarios including historical
                                                  loss factors and qualitative factors,
                                                  and
                                             o incorporating benchmarking to help
                                                  validate the adequacy of ALLL.
                                         •   Ensure quality assurance processes
                                             related to residential mortgage activity
                                             are more formalized and aligned with
                                             Fannie Mae's expectations to ensure
                                             ongoing investor compliance.
                                         •   Continue refining forward-looking
                                             funding analysis.
                                         •   Develop a more comprehensive
                                             contingency funding plan.
                                         •   Continue to develop alternative
                                             diversified funding sources.
                                         •   Report policy limit ratios through the
                                             asset-liability committee.
                                         •   Consider revising the funding gap policy
                                             limit to a more realistic limit.
                                         •   Consider incorporating additional
                                             liquidity ratios in the liquidity
                                             management process.
                                         •    Improve interest risk rate management.
                                         •    Violations cited included:
                                              o 12 C.F.R. §30, Appendix B (III)(B) –
                                                  Implement standards for
                                                  safeguarding customer information,
                                                  and
                                              o 12 U.S.C. 2803 and 12 C.F.R.
                                                  §203.4(a) – Collect and record data


                   Material Loss Review of Ocala National Bank (OIG-09-043)                    Page 46
                    Appendix 5
                    OCC Ocala National Bank Examinations, Significant Issues, and Enforcement
                    Actions


Date
examination   CAMELS        Assets        Significant safety and soundness corrective    Enforcement
started       rating        ($Millions)   actions and other issues cited in ROE          action
                                                   as required by the Home Mortgage
                                                   Disclosure Act.
11/13/2007     4/444434     $269          Matters requiring attention                    Consent
                                          • Strengthen credit risk identification and    order issued
                                              oversight:                                 on
                                              o Hire a lender with commercial real       2/14/2008
                                                   estate experience, and hire           (formal
                                                   additional staff. ;                   action)
                                             o     Improve the accuracy of problem
                                                   loan identification and reduce the
                                                   level of problem loans.
                                              o Improve underwriting and credit
                                                   analysis.
                                              o Reduce concentration of home
                                                   construction.
                                          • Make the necessary provisions to the
                                              ALLL to reflect the deterioration in
                                              asset quality. Establish ALLL policy and
                                              methodology that conforms to OCC
                                              guidance.
                                          • Strengthen the appraisal process by
                                              ensuring that the appraisers and
                                              appraisal reviewers have the necessary
                                              qualifications. Ensure that evaluations
                                              for real estate meet minimum
                                              interagency standards.
                                          • Improve loan portfolio management
                                              information reports.
                                          • When held for sale loans are transferred
                                              to the bank’s permanent portfolio, write
                                              down loans where the market value is
                                              less than the bank’s cost.
                                          • Reduce liquidity risk by increasing on-
                                              balance sheet liquidity, enhancing
                                              liquidity monitoring, and revising
                                              contingency funding plan.
                                          Other issues/recommendations
                                          • Improve asset diversification by
                                              increasing consumer lending, owner


                    Material Loss Review of Ocala National Bank (OIG-09-043)                  Page 47
                    Appendix 5
                    OCC Ocala National Bank Examinations, Significant Issues, and Enforcement
                    Actions


Date
examination   CAMELS        Assets        Significant safety and soundness corrective     Enforcement
started       rating        ($Millions)   actions and other issues cited in ROE           action
                                              occupied commercial real estate loans,
                                              and the investment portfolio.
                                          •   Focus loan analyses more on the
                                              primary source of repayment such as
                                              cash flow from the project, the
                                              borrower, or the guarantor. Reviews
                                              also need to consider analysis of the
                                              borrower's other debt and projects.
                                          •   Strengthen commercial real estate
                                              underwriting standards.
                                          •   Convert problem loans and bank owned
                                              real estate properties into solid earning
                                              assets.
                                          •   Ensure that the bank only books high
                                              quality loans to alleviate the need for
                                              additional large loan loss provisions.
                                          •   Request an FDIC waiver for brokered
                                              deposits.
                                          •   Enhance sensitivity to market risk.
                                          •   Violations cited included:
                                              o 12 U.S.C. § 1828(o) – Appraisal
                                                  required prior to real estate
                                                  transaction,
                                              o 12 C.F.R. Part 34.44(b)) –
                                                  Minimum appraisal standards must
                                                  be met to support decision for real
                                                  estate transaction,
                                              o 12 C.F.R. Part 34.43(b) –
                                                  Evaluation of real property required
                                                  prior to loan approval when
                                                  appraisal is not required, and
                                              o 12 U.S.C. § 161(a) – Refile Reports
                                                  of Condition and Income.
11/17/2008     5/555552     $219          Matters requiring attention                     Consent
                                          • No matters are identified. OCC was            order issued
                                             already preparing to close the bank.         on
                                                                                          2/14/2008
                                          Other issues/recommendations                    still in place.
                                          • Adhere to the appropriate accounting


                    Material Loss Review of Ocala National Bank (OIG-09-043)                     Page 48
                   Appendix 5
                   OCC Ocala National Bank Examinations, Significant Issues, and Enforcement
                   Actions


Date
examination   CAMELS       Assets        Significant safety and soundness corrective    Enforcement
started       rating       ($Millions)   actions and other issues cited in ROE          action
                                             procedures, policies, and internal
                                             controls to administer OREO, including
                                             periodic collateral valuations.
                                         •   Overall credit administration continues
                                             to need improvement.
                                         •   The following 2007 matters requiring
                                             attention need further action and are
                                             considered outstanding:
                                             o Reduce the level of problem assets
                                                 and improve problem loan
                                                 identification.
                                             o Reduce credit exposure, and
                                                 strengthen underwriting and credit
                                                 risk selection.
                                             o Improve appraisal ordering and
                                                 review process to ensure
                                                 compliance with appraisal
                                                 regulations.
                                             o Ensure ALLL is adequate and the
                                                 methodology complies with OCC
                                                 guidance.
                                         •   The commercial real estate (CRE)
                                             lending area require additional work:
                                             o Address CRE lending in the bank’s
                                                 strategic plan.
                                             o Establish CRE policy guidelines.
                                             o Obtain market analysis information
                                                 to assess whether the CRE lending
                                                 strategy and policy is appropriate.
                                             o Improve assessment of developers’
                                                 overall credit worthiness.
                                             o Perform portfolio stress testing and
                                                 sensitivity analysis on CRE loans.
                                         •   Violations cited included:
                                              o 12 C.F.R. 337.6 (b)(3)(ii) and
                                                 12 U.S.C. § 1831f (e)(1) –
                                                 Undercapitalized insured depository
                                                 institution may not solicit deposits




                   Material Loss Review of Ocala National Bank (OIG-09-043)                  Page 49
                        Appendix 5
                        OCC Ocala National Bank Examinations, Significant Issues, and Enforcement
                        Actions


Date
examination    CAMELS           Assets         Significant safety and soundness corrective   Enforcement
started        rating           ($Millions)    actions and other issues cited in ROE         action
                                                      by offering an effective yield that
                                                      exceeds the allowable offering rate.
Source: OIG analysis of OCC Reports of Examination.




                        Material Loss Review of Ocala National Bank (OIG-09-043)                  Page 50
                      Appendix 6
                      Prior OIG Material Loss Review Recommendations


We have completed three mandated material loss reviews of failed banks since the
current economic crisis began in 2007. This appendix provides our recommendations
to the Office of the Comptroller of the Currency (OCC) resulting from these reviews.
OCC management concurred with the recommendations and has taken or planned
corrective actions that are responsive to the recommendations. In certain instances,
the recommendations address matters that require ongoing OCC management and
examiner attention.

                                                     Recommendations to the Comptroller of the
 Report Title                                        Currency
 Safety and Soundness: Material Loss Review of       Re-emphasize to examiners that examiners must
 ANB Financial, NA, OIG-09-013 (Nov. 25, 2008)       closely investigate an institution’s circumstances
                                                     and alter the supervisory plan if certain
 OCC closed ANB Financial and appointed the          circumstances exist as specified in OCC’s
 Federal Deposit Insurance Corporation (FDIC) as     Examiner’s Guide to Problem Bank Identification,
 receiver on May 9, 2008. At that time, FDIC         Rehabilitation, and Resolution.
 estimated that ANB Financial’s failure would
 cost the Deposit Insurance Fund $214 million.       Re-emphasize to examiners that formal
                                                     enforcement action is presumed warranted when
                                                     certain circumstances specified in OCC’s
                                                     Enforcement Action Policy (PPM 5310-3) exist.
                                                     Examiners should also be directed to document
                                                     in the examination files the reason for not taking
                                                     formal enforcement action if those
                                                     circumstances do exist.

                                                     Reassess guidance and examination procedures
                                                     in the Comptroller’s Handbook related to bank
                                                     use of wholesale funding with a focus on heavy
                                                     reliance on brokered deposits and other nonretail
                                                     deposit funding sources for growth.

                                                     Establish in policy a “lessons-learned” process to
                                                     assess the causes of bank failures and the
                                                     supervision exercised over the institution and to
                                                     take appropriate action to address any
                                                     significant weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of       Re-emphasize to examiners the need to ensure
 First National Bank of Nevada and First Heritage    banks take swift corrective actions in response
 Bank, NA, OIG-09-033 (Feb. 27, 2009)                to examination findings.

 OCC closed FNB of Nevada and First Heritage         Reemphasize to examiners OCC’s policy on the
 Bank on July 25, 2008, and named FDIC as            preparation of supervision workpapers (e.g.,
 Receiver. As of December 31, 2008, FDIC             workpapers are to be clear, concise, and readily
 estimated a loss to the Deposit Insurance Fund      understood by other examiners and reviewers).
 of $706 million for FNB Nevada and $33 million
 for First Heritage Bank.

                      Material Loss Review of Ocala National Bank (OIG-09-043)                   Page 51
                    Appendix 6
                    Prior OIG Material Loss Review Recommendations


                                                   Recommendations to the Comptroller of the
Report Title                                       Currency
Safety and Soundness: Material Loss Review of      Conduct a review of investments by national
the First National Bank of Commerce, OIG-09-       banks for any potential high risk concentrations
042 (Aug. 6, 2009)                                 and take appropriate supervisory action.

OCC closed the National Bank of Commerce and       Reassess examination guidance regarding
appointed FDIC as receiver on January 16,          investment securities, including [Government
2009. As of June 30, 2009, FDIC estimated          Sponsored Enterprise] securities.
that the bank’s failure would cost the Deposit
Insurance Fund $92.5 million.




                    Material Loss Review of Ocala National Bank (OIG-09-043)                   Page 52
Appendix 7
Management Comments




Material Loss Review of Ocala National Bank (OIG-09-043)   Page 53
Appendix 7
Management Comments




Material Loss Review of Ocala National Bank (OIG-09-043)   Page 54
Appendix 8
Major Contributors To This Report




Boston Audit Office

Mark Ossinger, Audit Manager
Kenneth Dion, Audit Manager
Jenny Hu, Auditor-in-Charge
Kenneth O’Loughlin, Auditor
Alex Taubinger, Auditor

Washington, DC

Shaneasha Edwards, Referencer




Material Loss Review of Ocala National Bank (OIG-09-043)   Page 55
Appendix 9
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

United States House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Chairman

U.S. Government Accountability Office

    Acting Comptroller General of the United States




Material Loss Review of Ocala National Bank (OIG-09-043)   Page 56
